27. NON-REISSUANCE. For security purposes, Star One Credit Union
VISA Credit Cards are reissued every five years. If at the time of reissue
your VISA Credit Card Account has been inactive for at least 12 months,
we reserve the right to not reissue you a new Card and may close your
VISA account.
28. TRANSFER OF ACCOUNT. You cannot transfer your account to any
other person.
29. ACCELERATION. If you are in default as provided above, or if we
in good faith reasonably believe that the prospect of payment or
performance is impaired, amounts you owe us shall, at our option and
without notice, become immediately due and payable.
30. DELAY IN ENFORCEMENT. We can delay enforcing any right under
this Agreement without losing that right or any other right.
31. AMENDMENT. We reserve the right to amend the terms of this
Agreement at anytime as permitted by and subject to any limitations and
notice requirements of applicable law.
32. SEVERABILITY. If any provision of this Agreement is held invalid all
provisions that are severable from the invalid provision remain in effect.
33. OWNERSHIP OF CARDS. Any Card or other credit instrument or
device which we supply to you is our property and must be returned to
us, or any person whom we authorize to act as our agent, or any person
who is authorized to honor the Card. The Card may be repossessed at
any time at our sole discretion without any demand or notice.
34. PIN SECURITY. You agree not to disclose or otherwise make your
Card or Personal Identification Number (“PIN”) available to anyone
without prior written consent. You agree not to disclose or otherwise
make available your PIN to anyone not authorized to sign on your
account. For security reasons, please do not write your PIN on your Card
or keep it in the same location as your Card.
35. CREDIT REPORTS AND NEGATIVE INFORMATION NOTICE. You
authorize us to make or have made any credit, employment and /or
investigative inquiry we deem appropriate for the extension of credit or
collection of amounts owing on the account. We can furnish information
concerning your account to consumer reporting agencies and others who
appear to have a business need for that information. Late payments,
missed payments, or other defaults on your credit card account may be
reflected in your credit report.
36. ADDRESS. You agree to advise us promptly if you change your mailing
address. We can accept address corrections received from the U.S. Postal
Service for any authorized user. All written notices and statements from
us to you will be sent to your address as it appears on our records.
Written notices and inquiries from you to us must be sent to:
Star One Credit Union
P.O. Box 3643
Sunnyvale, California 94088-3643
37. GOVERNING LAW. This Agreement will not take effect until it is
approved by the Credit Union in the State of California. All payments shall
be made to the Credit Union at the Credit Union’s offices. This Agreement
shall be governed by the laws of the State of California and for any nonCalifornia residents, any consumer disclosure requirements under state
law as set forth on the State Law Addendum, which is incorporated herein.
38. PHONE CALLS. In the regular course of our business, we may
monitor and record phone conversations made or received by our
employees. You agree that we will have such right with respect to all
phone conversations between you and our employees, whether initiated
by you or any of our employees.
39. MILITARY LENDING DISCLOSURES. The following disclosures are provided
and apply to the borrower who is a Covered Member as described below.
(a) B
 orrower Certification of Active Duty. By requesting a Credit Card
each borrower certifies to the Credit Union that borrower: (i) is a
Covered member as a member of the Armed Forces who is currently
serving on active duty (under a call or order not less than 30 days)
Active Guard or Reserve duty; and (ii) borrower is the Covered Member

or is a dependent of the Covered Member. Borrower(s) authorize the
Credit Union to verify their status as a Covered Member or dependent by
obtaining information from the database of the Department of Defense
or from a consumer report obtained from a consumer reporting agency.
(b) M
 ilitary Annual Percentage Rate. Federal law provides important
protections to members of the Armed Forces and their dependents
relating to extensions of consumer credit. In general, the cost of
consumer credit to a member of the Armed Forces and his or her
dependent may not exceed an annual percentage rate of 36%. This
rate must include, as applicable to the credit transaction or account:
the costs associated with credit insurance premiums; fees for ancillary
products sold in connection with the credit transaction; any application
fee charged (other than certain application fees for a credit card account);
and any participation fee charged (other than certain participation fees
for a credit card account).
(c) P
 ayment Obligation. Your payment obligation under your Credit Card
Account is set forth in Sec. 10 and 11 above in the Credit Card Agreement.
(d) Credit Union Toll-Free Telephone Number - 866.543.5202. Call this
number for verbal information about the Military Annual Percentage
Rate and your payment obligation.
YOUR CREDIT CARD BILLING RIGHTS
Keep this document for future use. This notice tells you about your rights
and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement. If you think there is an error
on your statement, write to us at the Credit Union address on your statement.
In your letter, give us the following information:
• Account information: Your name and account number.
• Dollar amount: The dollar amount of the suspected error.
•D
 escription of problem: If you think there is an error on your bill, describe
what you believe is wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled,
if you want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but
if you do, we are not required to investigate any potential errors and you
may have to pay the amount in question.
What Will Happen After We Receive Your Letter. When we receive your letter,
we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received
your letter. We will also tell you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the
error or explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question or report you as
delinquent on that amount.
• The charge in question may remain on your statement, and we may
continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are
responsible for the remainder of your balance.
	• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question
or any interest or other fees related to that amount.
• If we do not believe there was a mistake: You will have to pay the
amount in question, along with applicable interest and fees. We will
send you a statement of the amount you owe and the date payment
is due. We may then report you as delinquent if you do not pay the
amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must
write to us within 10 days telling us that you still refuse to pay. If you do
so, we cannot report you as delinquent without also reporting that you

are questioning your bill. We must tell you the name of anyone to whom
we reported you as delinquent, and we must let those organizations know
when the matter has been settled between us. If we do not follow all of
the rules above, you do not have to pay the first $50 of the amount you
question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases. If you are
dissatisfied with the goods or services that you have purchased with your
credit card, and you have tried in good faith to correct the problem with the
merchant, you may have the right not to pay the remaining amount due on
the purchase. To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100
miles of your current mailing address, and the purchase price must
have been more than $50. (Note: Neither of these are necessary if your
purchase was based on an advertisement we mailed to you, or if we own
the company that sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases
made with cash advances from an ATM or with a check that accesses
your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the
purchase, contact us in writing at the above address. While we investigate,
the same rules apply to the disputed amount as discussed above. After we
finish our investigation, we will tell you our decision. At that point, if we think
you owe an amount and you do not pay, we may report you as delinquent.
STAR ONE CREDIT UNION
Sunnyvale
1080 Enterprise Way, Suite 150
Sunnyvale, CA 94089
Enterprise Way & 11th Ave.

Cupertino
10991 North DeAnza Blvd.
Cupertino, CA 95014
DeAnza Blvd. & Homestead Road

San Jose
1090 Blossom Hill Road
San Jose, CA 95123

Blossom Hill Road & Almaden Expwy

San Jose
3136 Stevens Creek Blvd.
San Jose, CA95117

Stevens Creek Blvd. & S. Winchester Blvd.

Palo Alto
3903 El Camino Real
Palo Alto, CA 94306

El Camino Real & Ventura Ave.

Saratoga
14411 Big Basin Way
Saratoga, CA 95070

VISA Credit Card
Agreement
and
Disclosure
Statement for:
Signature,
Platinum Rewards
& Platinum

Big Basin Way and Saratoga Ave.

Administration Building
1306 Bordeaux Dr
Sunnyvale, CA 94089

Mailing Address
Star One Credit Union
P.O. Box 3643
Sunnyvale, CA 94088-3643

Phone Numbers
866-543-5202 • 408-543-5202

STR-1030 (03/2021)

WEB ADDRESS
www.starone.org

03/2021

VISA CREDIT CARD AGREEMENT
1. DEFINITION OF PARTIES. This VISA Credit Card Agreement (“Agreement”)
covers your VISA Credit Card (“Card”) issued through StarOne Credit Union.
In this Agreement the words “you,” “your,” and “yours” include any joint
obligator, guarantor, authorized user, or the person whose name is embossed
on the Card. The words “we,” “us,” and “our” mean Star One Credit Union.
2. AGREEMENT ACCEPTANCE. If you sign an application for any account
under this Agreement or sign or use any Card(s) issued or Personal
Identification Number (PIN); or allow others to use the account, Card(s) or
PIN, you and they will have accepted this Agreement just as if you and
they signed it, and you and they, jointly and severally, will be bound by the
following terms and conditions.
3. SIGN YOUR CARD. Immediately sign the signature panel on the back of
your Card upon receipt. The Card must be signed in order to be valid.
4. VISA CREDIT LINE. We have established and advised you of the “Credit
Line,” which is the limit on the total balance that may be outstanding in
your account at any one time. Your VISA Credit Line is to be considered
a signature loan. The maximum signature limit cannot be exceeded.
Therefore, other outstanding signature loans must be taken into account
when your VISA Credit Line is established. You agree not to attempt to
obtain more credit than the amount of your Credit Line. However, if you
temporarily exceed your VISA Credit Line, you agree to repay the excess
immediately, even if we have not yet billed you. Obtaining such credit does
not increase your VISA Credit Line; however, we can increase your VISA
Credit Line at our sole discretion.
5. USING YOUR CARD. You may use your account for purchases of services
and merchandise from participating merchants that honor your Card.
You may also use your Card to obtain a cash advance from participating
financial institutions. Neither we nor any merchants authorized to honor
the Card will be responsible for the failure or refusal of anyone to honor the
Card or any other credit instruments or devices we supply to you.
6. ILLEGAL OR UNLAWFUL TRANSACTIONS. You agree that you will not
use the Card for any illegal or unlawful transaction, and we may decline to
authorize any transaction that we believe poses an undue risk of illegality
or unlawfulness. You agree that Star One Credit Union will not have any
liability, responsibility, or culpability whatsoever for any such use by you or
any authorized user(s). You further agree to indemnify and hold Star One
Credit Union harmless from any suits, liability, damages, or adverse action
of any kind that results directly or indirectly from such illegal use.
7. ATM ACCESS FOR CASH ADVANCES/ATM CASH ADVANCE LIMITS.
Your Card and Personal Identification Number (PIN) can be used to obtain
cash advances from your VISA Credit Card account at Star One Credit Union
ATMs and at other ATMs in the VISA ATM network and other such machines
or facilities that we may designate. There are no fees for requesting cash
advances on Star One Credit Union owned ATMs. There may be fees for
cash advances at ATMs owned by other institutions. You may obtain cash
advances against your account up to a maximum aggregate total of $500
per day provided sufficient funds are available.
8. CHECKING ACCOUNT OVERDRAFT COVERAGE. Your VISA Credit Card
may also provide Overdraft Coverage on your Star One Credit Union checking
account. If you authorize us to link your Credit Card account to your checking
account for overdraft coverage and the balance in your checking account is
not sufficient to pay the transaction amount, we may treat the transaction
as a request to access your VISA Credit Line. The funds may be transferred
from your VISA Credit Line into your checking account in $100 increments.
These transfers will be treated as cash advances. If sufficient credit is not
available on your VISA Credit Card account to cover the amount of the check
or other item, we will be unable to initiate a cash advance loan advance
under this Agreement for purposes of checking account overdraft coverage.
(a) Limit: Your Checking Account Overdraft Coverage limit will be part
of, and not in addition to, your total approved Credit Line under this
Agreement.

(b) Liability For Overdrafts Caused by Any Checking Account Signer:
You understand that if advances are made against your VISA account
to cover overdrafts to your checking account created by other persons
with the right to access said checking account, you will be fully liable
for such advances nonetheless.
9. YOU PROMISE TO PAY. You promise to pay us in United States dollars,
by cash, check or money order as provided by this Agreement, all such
amounts, plus Interest Charges, which arise from such use of the Card or
account by you or any other person, and to be jointly and severally liable
with such a person, unless such other person does not have actual, implied,
or apparent authority for such use, and you received no benefit for the use.
10. MINIMUM MONTHLY PAYMENT. We will mail you a statement every
month if your account has a balance. You agree that you will pay each
month not less than the minimum monthly payment on or before the
scheduled monthly due date. The minimum monthly payment will be 2.5%
of your outstanding balance (“New Balance”) or $20.00, whichever is
greater. If your outstanding balance is $20.00 or less, you agree to pay
the balance in full. You may pay in full for all your purchases and cash
advances each month, or you may repay in monthly installments. We can
accept late payments or partial payments, or checks, drafts, or money
orders marked “payment in full” without prejudice to our rights under this
Agreement, which are hereby explicitly reserved. A credit posting from a
merchant or reversal of fees do not constitute a minimum payment.
11. AUTOMATIC PAYMENT OPTION. If you have elected Automatic Payment
(or “AutoPay”), the Credit Union will automatically deduct and transfer your
monthly VISA Credit Card payment from your designated Credit Union,
checking or savings account on the scheduled Payment Due Date. The
Automatic Payment Option is voluntary, is not a condition of credit or this
Agreement and can be withdrawn by you at any time. The Automatic Payment
option remains in effect until the Credit Union receives notification from you
terminating the arrangement. Your request for termination must give the
Credit Union reasonable opportunity to act on it. When you elect AutoPay,
you agree that we may adjust the automatic payment amount each month
to agree to either the minimum monthly payment (Required Payment Due) or
“Payment in Full” as authorized by you. Notification of the varying payment
amount due and scheduled payment due date will be satisfied by providing
you with a monthly billing statement reflecting this information. If sufficient
funds are not available to satisfy the total amount of the payment when due;
we will take whatever funds are available each processing day between the
payment due date and the account cycle date until the scheduled payment
is satisfied. If due to insufficient funds we do not transfer funds to make your
required VISA Credit Card payment, you will be responsible to ensure that
the required VISA Credit Card payment is made.
12. INTEREST CHARGES. The total outstanding balance of purchases,
cash, and overdraft advances in the Account on the closing date of any
Billing Cycle, including any Interest Charges, will be shown on the Periodic
Statement for that billing Cycle as the “New Balance.”
(a) Purchases. An Interest Charge will be imposed on the portion of
purchases included in the New Balance that remains unpaid within
25 days after the closing date. This “grace period” allows you to avoid
an Interest Charge on purchases for a billing cycle. However, if you do
not pay the New Balance for purchases within the grace period, your
Interest Charge will accrue on any unpaid purchase transactions from
the date of purchase.
(b) Cash/Overdraft/Balance Transfer Advances An Interest Charge will
be imposed on Cash/Overdraft/Balance Transfer Advances from the
date posted to the account to the date paid.
13. BALANCE COMPUTATION METHOD. The Credit Union figures the
Interest Charge on your account under the average daily balance (including
purchases) method by starting with your Daily Balance (excluding unpaid
Interest Charges) and multiplying that number by the number of days during
the Billing Cycle during which you had that balance. We do this for each
balance you have during the Billing Cycle and add up the results. That
total is the balance used to determine your Interest Charge and is divided
by the number of days in the Billing Cycle, then multiplied by the Annual
Percentage Rate (APR), then divided by 365 days, and then multiplied by the

number of days in the Billing Cycle to get your Interest Charge for the Billing
Cycle. Interest Charges start to accrue on loan advances and on purchases
from the date the loan advance or purchase is posted to your account and
your loan balance is reduced when the Credit Union receives your payment
or enters a credit. An Interest Charge will not be imposed on the portion of
purchases that are paid within 25 days after the closing date.
14. DAILY PERIODIC RATE AND ANNUAL PERCENTAGE RATE.
(a) VISA Signature Cards - The Daily Periodic Rate used to compute
the Interest Charge on VISA Signature Accounts is .0239726% with a
8.75% Annual Percentage Rate.
(b) VISA Platinum Reward Cards - The Daily Periodic Rate used to
compute the Interest Charge on VISA Platinum Reward Accounts is:
.0239726% with a 8.75% Annual Percentage Rate, .0267123% with
a 9.75% Annual Percentage Rate, and .0349315% with a 12.75%
Annual Percentage Rate, based on your credit qualification.
(c) VISA Platinum Cards - The Daily Periodic Rate used to compute
the Interest Charge on VISA Platinum Accounts is: .0212329% with
a 7.75% Annual Percentage Rate, .0239726% with a 8.75% Annual
Percentage Rate, .0321918% with a 11.75% Annual Percentage Rate,
and .0376712% with a 13.75% Annual Percentage Rate, based on
your credit qualification.
The applicable Annual Percentage Rate for your account is stated on your
VISA Credit Card approval letter.
The Interest Charge for any Billing Cycle will be the sum of the Interest
Charge for purchases, the Interest Charge for cash advances and Interest
Charge for balance transfers.
15. PROMOTIONAL RATES. From time to time, we may offer promotional
Periodic Rates and Annual Percentage Rates lower than the Periodic
Rate and Annual Percentage Rates (“Promotional Rates”) stated in this
Agreement. The terms of any promotional rates will be disclosed to you at
the time of the promotion in a separate addendum which will become part
of this Agreement. At the end of the promotional period, the Periodic Rate
and Annual Percentage Rate for your account will be the same terms as
set forth in this Agreement.
16. OTHER FEES AND CHARGES.
(a) Late Payment Charge - If your Minimum Payment is not paid within
10 days after the Payment Due Date, you will be subject to a $10.00
charge or the maximum late charge allowed by applicable law.
(b) R
 eturned Payment - A $15.00 charge will be made for a returned
payment from a member or $10.00 if the returned payment is from a
non-member, regardless of the reason.
(c) R
 esearch and Copying - If you ask us to examine your account or
provide copies of documents, except in resolution of a billing error, we
may charge you $3.00 for each statement copy and a $28.00 charge per
hour may be imposed for the time we spend to research your account.
(d) Annual Membership Fee - None
(e) ATM Fees - If you use an ATM to obtain a cash advance and the ATM is not
operated by us, you may be charged an ATM surcharge by the ATM operator
or an ATM network utilized for such a transaction. The ATM surcharge may
be charged to your account if you complete the transaction.
(f) R
 eplacement Card Fee. If you request a replacement card, you agree
the 1st request per year is free and all subsequent requests are $5.00.
(g) C
 urrency Conversion. Purchases and cash advances in foreign
currencies made in or with merchants located in foreign countries
will be billed in U.S. dollars. The conversion rate in U.S. dollars will
be either at the government mandated rate or a wholesale currency
market rate determined by VISA® for the processing cycle in which the
transaction is processed. The currency conversion rate used by VISA®
on the processing date may differ from the rate that would have been
used on the purchase date or cardholder statement posting date. The
Credit Union has no control over the conversion rate.
17. PAYMENTS. We will apply your payments first to any billed fees, then
to late charges, then to the Interest Charges on both purchases and cash

advances, then to the principal balances of purchases in the order they
were posted to your account, and then to the principal balance of cash
advances. If two or more purchases were posted on the same day, your
payment will be applied to the smallest first.
18. PERIODIC STATEMENTS. If, at the end of any monthly periodic
interval which we may determine (the “Billing Cycle”), you have an
outstanding undisputed debit or credit balance in your account, or if there
is an Interest Charge imposed with respect to your account, we will send
you a periodic statement for that Billing Cycle.
19. ACCOUNT STATEMENT. Unless you notify us of a billing error as
described below, you accept your periodic statements as accurate
statements of your account with us.
20. USE OF THE ACCOUNT BY OTHERS. If you permit another person to
use your account at anytime, you agree to pay for (1) any transactions
made by that person and (2) charges imposed on those transactions,
even if the amount of the actual use exceeds your permission to the
extent allowed by applicable law. For California residents, a married
applicant may apply for a separate Account. After credit approval,
borrowers may, use the Account up to its credit limit and may be liable for
amounts extended under the plan to any joint applicant or co-borrower.
21. LIABILITY FOR UNAUTHORIZED USE/ LOST/STOLEN NOTIFICATION.
You agree to notify us immediately, orally or in writing at Star One Credit
Union, P.O. Box 3643, Sunnyvale, California 94088-3643, telephone 408
543-5202 or 866 543-5202 of the loss, theft, or unauthorized use of your
Card or other credit instrument or device that we supply to you. If you
notify us of your lost or stolen Credit Card after discovery, you may not be
liable for any losses related to credit transactions. This zero liability will
apply provided you promptly notify us of your lost or stolen Credit Card and
you were not negligent or fraudulent in handling your Card; otherwise your
liability for unauthorized Visa Credit Card transactions may be up to $50.
You agree to assist us in determining the facts, circumstances, and other
pertinent information related to any loss, theft, or possible unauthorized
use of your Card, Account Number or PIN and to comply with such
procedures as we may require with our processing and investigation.
22. Account Updater Service. Your Visa Credit Card will be automatically
enrolled in a Visa required service (Visa Account Updater) in which any
new card data (card number and expiration date) for a replacement card
issued to you will be shared and available on a Visa hosted database
accessible by merchants with whom you have preauthorized payment
transactions. The updated Visa Credit Card data permits merchants who
participate in VAU to continue to process your preauthorized transactions.
You may opt-out of the service.
23. IRREGULAR PAYMENTS. We can accept late payments or partial
payments, or checks and money orders marked “payment in full”
without prejudice to our rights under this Agreement, which are hereby
explicitly reserved.
24. DEFAULT. You will be in default if you fail to pay as agreed, fail to
comply with any provision of this Agreement, if you provide us with false
information or signature, if you default on any account or other obligation
that you have with us, or if you die, become insolvent, or file bankruptcy.
25. ATTORNEYS FEES AND COSTS. If you default on any part of this
Agreement, you agree to pay us all costs to collect your account,
including court costs and reasonable attorneys fees whether or not there
is a lawsuit, and fees on any appeal and fees for bankruptcy proceedings,
appeals, and any post-judgment collection services, if applicable.
26. TERMINATION. We may terminate or suspend your credit privileges
under this Agreement, at any time, in our sole discretion without demand or
notice. If we are required by law to give you a reason for adverse action for
credit denied, we will do so. You must notify us in writing if you decide to
terminate the Agreement. If you terminate this Agreement or if we terminate
or suspend your credit privileges, the provisions of the Agreement and your
liability hereunder shall otherwise remain in full force and effect until all
cards or credit instruments or devices issued to you have been canceled
and/or returned to us and you have paid us all sums due us.

